OIG Audit Report GR-80-07-003

Title II Part B Formula Grants, Title V  Delinquency Prevention Programs Grant, and Juvenile Accountability Block Grant Awarded to the State of Oklahoma, Office of Juvenile Affairs

Audit Report GR-80-07-003


October 2006
Office of the Inspector General


Executive Summary





 The Office of the Inspector General, Audit Division, completed an audit of the following grants: 


 Grant Number 
 Title 
 Award Amount 


 
 
 


 2004-JF-FX-0006 
 Title II Part B Formula 
 $765,000 


 2004-JP-FX-0008 
 Title V – Delinquency Prevention 
 171,000 


 2004-JF-FX-0011 
 Title II Part B Formula Supplement 
 154,000 


 2004-JB-FX-0025 
 Juvenile Accountability Block Grant 
 681,484 


 2005-JF-FX-0031 
 Title II Part B Formula 
 746,000 


 2005-JF-FX-0063 
 Title II Part B Formula Supplement 
 171,000 


 Total 
 $2,688,484 


 These grants were awarded by the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP), Office of Juvenile Justice and Delinquency Programs (OJJDP), to the State of Oklahoma, Office of Juvenile Affairs (OJA) in Oklahoma City, Oklahoma. 
 The Formula Grants Program is authorized under the Juvenile Justice and Delinquency Prevention Act (JJDP Act) of 2002. The purpose of this program is to support state and local delinquency prevention and intervention efforts and juvenile justice system improvements. Program areas may include planning and administration; State Advisory Group allocation; compliance monitoring; juvenile justice issues for American Indian tribes; prevention of substance abuse by juveniles; prevention of serious and violent crimes by juveniles; prevention of juvenile gang involvement and illegal youth gang activities; prevention of delinquent acts and identification of youth at risk of delinquency; and improvement of juvenile justice system operations, policies, and procedures, including establishing a system of graduated sanctions, treatment programs, and aftercare. 
 In 1992, the new Title V of the JJDP Act of 1974 established the Incentive Grants for Local Delinquency Prevention Programs. Working from a research-based framework, this program focuses on reducing risks and enhancing protective factors to prevent youth from entering the juvenile justice system. It offers a funding incentive to encourage community leaders to initiate multidisciplinary assessments of risks and resources unique to their communities and to develop comprehensive, collaborative plans to prevent delinquency. 
 In FY 2002, Public Law 107-273, Omnibus Crime Control and Safe Streets Act, instituted into legislation the Juvenile Accountability Block Grants (JABG) program. The overarching goal of the JABG program is to provide states and units of local government with funds to develop programs for the purpose of strengthening the juvenile justice system. To that end, the program provides support, both financial and programmatic, to improve juvenile justice system infrastructure and operations at the state and local levels. JABG funds are allocated to states based on each state’s relative population of youth under age 18. 
 The OJA is a state agency entrusted by the people of Oklahoma to provide professional prevention, education, and treatment services, as well as secure facilities for juveniles in order to promote public safety and reduce juvenile delinquency. The OJA provides programs and services to juveniles involved in the juvenile justice system. 
 As part of the audit, we tested OJA’s compliance with essential grant conditions — reporting, grant drawdowns, budget management and control, program income, matching program costs, grant expenditures, and monitoring of subrecipients. In addition, we tested the accounting records to determine if costs reimbursed under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and the terms and conditions of the grants. Our audit objectives, scope, and methodology appear in Appendix I of this report. 
 While we did find discrepancies in some of these areas, we did not take exception to them because they were immaterial.